Memorandum from the Office of the Inspector General



September 29, 2011

William R. McCollum, Jr., LP 6A-C
Anda A. Ray, WT 11A-K

FINAL REPORT – INSPECTION 2009-12943 – REVIEW OF TVA'S PLAN FOR REMOVAL
OF POLYCHLORINATED BIPHENYL EQUIPMENT



Attached is the subject final report for your review and action. Your written comments to
the draft report have been incorporated. Please advise us of your planned actions in
response to our findings within 60 days from the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact me at (865) 633-7450 or Greg R. Stinson,
Director, Inspections, at (865) 633-7367. We appreciate the courtesy and cooperation
received from your staff during this review.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MAD:FAJ
Attachment
cc (Attachment):
     Warren P. Behlau, LP 2R-C
     Micheal B. Fussell, WT 9B-K
     Kimberly S. Greene, WT 7B-K
     Peyton T. Hairston, Jr., WT 7B-K
     Tom Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Emily J. Reynolds, OCP 1L-NST
     John M. Thomas, lll, MR 6D-C
     Robert B. Wells, WT 9B-K
     Wendy Williams, WT 9B-K
     OIG File No. 2009-12943
                Tennessee Valley Authorrity
                Office of the Insspector Ge
                                          eneral
 

Insspecction
           n Reeporrt
     



                                                     

                                                     

 

 

 

REV
   VIEWW OF
         O TVVA’S
                S PL
                   LAN
FORR RE
      EMOOVAAL OF
                F
POLLYCCHLOORIN
             NATTED
BIP
  PHENNYLL EQ
            QUIPMMENNT
 




 

 
 
 

 


                           Inspe
                               ection 2009-12943
                              Se
                               eptember 299, 2011
Office of the Inspector General                              Inspection Report




ACRONYMS AND ABBREVIATIONS
EPA                        Environmental Protection Agency
ERC                        Environmental Resource Center
GE                         General Electric
OIG                        Office of the Inspector General
PCB                        Polychlorinated Biphenyl
PERs                       Problem Evaluation Reports
PPM                        Parts Per Million
REEs                       Reportable Environmental Events
SBU                        Strategic Business Unit
TVA                        Tennessee Valley Authority




Inspection 2009-12943
Office of the Inspector General                                                                 Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 3

FINDINGS AND RECOMMENDATIONS ................................................... 4
   NO CURRENT REQUIREMENTS FOR THE REMOVAL OF PCB
   EQUIPMENT, BUT PREVIOUS TVA PLANNED ELIMINATION ACTIONS
   WERE NOT COMPLETED ............................................................................... 4

   TVA FACES SIGNIFICANT RISK FROM THE CONTINUED USE OF PCB
   EQUIPMENT .................................................................................................... 6

   RECOMMENDATIONS .................................................................................. 16

   MANAGEMENT'S RESPONSE ..................................................................... 16


APPENDIX
MEMORANDUM DATED JULY 19, 2011, FROM WILLIAM R. McCOLLUM, JR.,
AND ANDA A. RAY TO ROBERT E. MARTIN




Inspection 2009-12943
                     Inspection 2009-12943 – TVA’s Plan for Removal of
                            Polychlorinated Biphenyl Equipment
                                  EXECUTIVE SUMMARY
     Why the OIG Did This Review

        This review was included on the annual inspection plan as a follow-up to previous
        reviews performed by the Office of the Inspector General (OIG).

        The objective of our review was to determine whether the Tennessee Valley
        Authority (TVA) is meeting all requirements and planned actions for the removal of
        equipment containing polychlorinated biphenyls (PCBs).

     What the OIG Found

        Our review found that there are currently no requirements for the removal of PCB
        equipment. However, some previous TVA planned actions for PCBi equipment
        removal were not completed. Additionally, we found TVA is at significant risk from
        the continued use of PCB-containing equipment, as (1) TVA maintains one of the
        largest inventories of PCB equipment in the electric utility industry, (2) the condition
        of some PCB equipment at TVA increases the risk of an incident, and (3) TVA
        does not have an accurate inventory of its PCB-contaminatedii equipment.

         No Current Requirements for the Removal of PCB Equipment, but
          Previous TVA Planned Elimination Actions Were Not Completed – While
          there are currently no requirements for the elimination of PCB equipment, the
          Environmental Protection Agency (EPA) has released an Advance Notice of
          Proposed Rulemaking, which serves notice that a future requirement for
          eliminating PCB equipment is likely.

            Additionally, in 1988, TVA issued a Management Directive requesting TVA
            offices to develop an integrated agency approach for the removal of PCB
            equipment. Cost estimates and estimated dates of completion were
            established. However, PCB equipment removal was not completed. In
            November 2003, TVA issued an Environmental Policy stating that it would no
            longer aim to eliminate PCB equipment before the end of its useful life. The
            failure to complete the PCB elimination efforts has forced TVA to develop a new
            elimination strategy to meet potential EPA requirements.


         TVA Faces Significant Risk From the Continued Use of PCB Equipment –
          TVA is at significant risk based on the continued use of PCB equipment as we
          found (1) TVA maintains one of the largest inventories of PCB equipment in the

i
     For purpose of this report, “PCB” refers to electrical equipment that contains 500 parts per million (ppm)
     or greater PCBs.
ii
     For purpose of this report, “PCB contaminated” refers to electrical equipment that contains from 50 to
     499 ppm PCBs.
                                                                                                          Page i
            Inspection 2009-12943 – TVA’s Plan for Removal of
                   Polychlorinated Biphenyl Equipment
                         EXECUTIVE SUMMARY
     electric utility industry, (2) the condition of some PCB equipment at TVA
     increases the risk of an incident, and (3) TVA does not have an accurate
     inventory of its PCB-contaminated equipment.

   Significant PCB Equipment Inventory – TVA had more than 400 pieces of
    known PCB equipment in service at the end of fiscal year 2009 that contained
    ≥ 500 parts per million (ppm) PCBs. The EPA has proposed rules to eliminate
    the use of equipment with 500 to 100,000 ppm PCBs by 2020. However, most
    of TVA's PCB equipment has PCB contamination levels exceeding 100,000
    ppm PCBs (referred to as “askarel” equipment). The EPA has proposed rules
    for the elimination of such equipment by 2015. We were informed by TVA that
    there is a possibility that the EPA may alter the schedule for equipment removal,
    however, that information is not publically available.

   Condition of Some PCB Equipment Increases the Risk of an Accident –
    Through our plant walkdowns and review of Problem Evaluation Reports (PERs)
    and TVA Environmental Audit reports, we identified certain issues that increase
    the risk of a PCB-related incident. These include equipment covered in coal
    dust, rags in close proximity to PCB equipment, a PCB transformer without a
    containment dike, and leaking PCB equipment.

   TVA Does Not Have an Accurate Inventory of PCB-Contaminated
    Equipment – PCB-contaminated equipment contains from 50 to 499 ppm
    PCBs. Through discussion with TVA management and plant personnel, we
    determined that there is no accurate inventory of this equipment. The EPA has
    proposed a deadline to eliminate the use of this equipment by 2025.

What the OIG Recommends

  We recommend that the Chief Operating Officer (1) expedite the removal of PCB
  equipment by (a) providing dedicated funding and (b) developing a standard
  methodology for assessing risk of PCB equipment to prioritize its removal and
  (2) provide dedicated funding to expedite the efforts to determine the PCB-
  contaminated inventory in order to prioritize and allocate funding for the removal of
  this equipment. Until the PCB-contaminated inventory is completed, TVA should
  treat all fires involving electrical equipment as if they involve PCBs until determined
  otherwise.

  TVA management provided written comments on a draft of this report, which are
  reproduced in their entirety in the Appendix. TVA management agreed with the
  recommendations and provided various contextual and clarifying comments that
  we evaluated and incorporated into the final report as appropriate. Comments that
  were not incorporated into the final version of the report are discussed in the
  Management's Response section of the report.
                                                                                   Page ii
Office of the Inspector General                                                            Inspection Report


BACKGROUND
Polychlorinated biphenyls (PCBs) are toxic and persistent chemicals primarily
used as insulating fluids in heavy-duty electrical equipment in power plants,
industries, and large buildings across the country. PCBs, valued for chemical
stability and fire resistance, were manufactured and processed from 1929
through the late 1970s.

In 1979, the Environmental Protection Agency (EPA) banned the manufacture of
PCBs through the Toxic Substances Control Act. Since the ban, no new
equipment containing PCBs at concentrations greater than or equal to
(≥) 50 parts per million (ppm) has been manufactured in the United States. The
number of PCB transformers in the United States is decreasing, but many are
still in use. As the useful life of transformers is typically no more than 30 to
40 years, PCB-containing equipment is nearing the end of its expected useful
life. Equipment is increasingly vulnerable to leaks as it becomes older.

According to the EPA, electrical equipment is regulated as “PCB”1 (≥ 500 ppm) or
“PCB contaminated”2 (50–499 ppm), with the ≥ 500 ppm regulations being the
most restrictive. Additionally, PCB equipment that contains ≥ 100,000 ppm has
been categorized as askarel equipment.

In the United States, PCBs are managed under the Toxic Substances Control Act
and the PCB regulations found at 40 CFR 761. These regulations do not require
the removal of PCB-containing equipment. However, in April 2010, the EPA
released an Advance Notice of Proposed Rulemaking that, if passed, would
impose deadlines for the removal of PCB and PCB-contaminated equipment.
The Advance Notice includes deadlines for “phasing out all PCB-electrical
equipment uses.”3




1
    For purpose of this report, “PCB” refers to electrical equipment that contains 500 ppm or greater PCBs.
2
    For purpose of this report, “PCB contaminated” refers to electrical equipment that contains from 50 to
    499 ppm PCBs.
3
    We were informed by TVA that there is a possibility that EPA may alter the schedule for equipment
    removal, however, that information is not publically available.
Inspection 2009-12943                                                                                 Page 1
Office of the Inspector General                                                   Inspection Report


Figure 1 presents the deadlines proposed by the EPA for the different categories
of equipment, as well as the Tennessee Valley Authority’s (TVA) current
inventory of the different categories.

Figure 1: EPA Proposed Deadlines
                                             Deadline for Removal
                              PCB             According to EPA’s
                          Concentration        Advance Notice               TVA Inventory
                                                                       The current inventory is
                                             By 2025, eliminate all
 PCB-                                                                  unknown. However, the
                     From 50 to 499 ppm      use of any PCB-
 Contaminated                                                          potential exists that TVA
                     PCBs                    contaminated
 Equipment                                                             has a large PCB-
                                             equipment.
                                                                       contaminated inventory.
                                             By 2020, eliminate all    TVA has approximately
 PCB                 500 ppm or greater
                                             use of oil-filled PCB     400 pieces of this
 Equipment           PCBs
                                             equipment.                equipment.
                                             By 2015, eliminate all
                                             use of askarel            The amount of askarel
                                             equipment, removing       equipment was not
 Askarel             100,000 ppm or
                                             from service the          identified separately in
 Equipment*          greater PCBs
                                             equipment in high         the PCB equipment
                                             potential exposure        inventory listing.
                                             areas first.

*Askarel is a subcategory of PCB. It is currently subject to the same regulatory requirements as
 PCB. The only regulatory difference lies with the potential deadline for removal. The inventory
 listings we received did not separate askarel equipment from other PCB equipment. However,
 management estimates that of the 400 pieces of PCB equipment, approximately 95 percent
 would be askarel.


PCBs pose significant risks to companies that use them. PCBs in liquid form can
contaminate both sediment and water, which can be extremely expensive to
clean up. A recent example is General Electric’s (GE) cleanup of the Hudson
River. Between the 1940s and 1976 when the U.S. Congress outlawed PCB
manufacture, GE discharged about 1.3 million pounds of PCBs into the Hudson
River. In 2000, the EPA charged GE with the responsibility to remediate the
2.65 million cubic yards of sediment contaminated by PCBs. The cleanup will
cost GE an estimated $460 million. On top of that, GE has attempted to stop the
contamination by placing a $200 million groundwater pump and treat system at
its Hudson Falls facility. In 2009, GE began digging up 400,000 tons of toxic
sludge and shipping it to a specially designed, sealed hole in west Texas.




Inspection 2009-12943                                                                       Page 2
Office of the Inspector General                                      Inspection Report


In addition to environmental impacts, PCBs can affect company operations. For
example, in 1981, a fire involving PCBs took place at the State Office Building in
Binghamton, New York, closing the building for 13 years, with cleanup costs
totaling $47 million.

It is internationally recognized that PCBs pose a risk to human health and the
environment. Information on health effects of PCBs is available from studies of
people exposed in the workplace, by consumption of contaminated rice oil in
Japan (the Yusho incident) and Taiwan (the Yu-Cheng incident), by consumption
of contaminated fish, etc. Health effects that have been associated with
exposure to PCBs in humans and animals include liver, thyroid, dermal, and
ocular changes; immunological alterations; neurodevelopmental changes;
reduced birth weight; reproductive toxicity; and cancer.

In the mid-1990s, the Office of the Inspector General (OIG) completed a review
of TVA’s electrical equipment containing PCBs, Audit 94-035P-01. During that
time, TVA was actively working to reduce its inventory of PCB equipment. The
OIG recommended that TVA’s Board of Directors, in consultation with the
Executive Committee, assess whether an expedited effort to eliminate PCBs
would be appropriate, taking into consideration the (1) risks and potential
liabilities associated with having PCB and PCB-contaminated equipment,
(2) costs TVA incurs in managing this equipment, and (3) age and useful life of
the PCB equipment in service.

OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of our review was to determine whether TVA is meeting all
requirements and planned actions for the removal of equipment containing
PCBs. To achieve our objective, we:

 Reviewed PCB regulatory requirements and assessed TVA’s compliance
  and/or progress in meeting those requirements.
 Obtained and reviewed TVA’s current PCB inventory.
 Conducted interviews and reviewed Reportable Environmental Events (REEs),
  Problem Evaluation Reports (PERs), and TVA Environmental Audit reports
  pertaining to PCBs to identify spills, near misses, risk exposure,
  noncompliance, and other issues.
 Obtained and reviewed TVA’s PCB elimination strategy.
 Interviewed pertinent TVA personnel and obtained documentation to
  determine (1) how TVA assesses PCB risk and (2) what actions TVA has
  implemented to mitigate risks.
 Obtained benchmarking information pertaining to PCBs and compared
  information pertaining to other utilities with TVA’s PCB inventory and strategy
  to assess TVA’s risk position and PCB standing within the industry.

Inspection 2009-12943                                                          Page 3
Office of the Inspector General                                      Inspection Report


 Reviewed regulatory and other information, studies, white papers, etc., to
  document views on PCB risks and elimination strategy.
 Performed walkdowns of five fossil fuel plants and two nuclear plants to
  assess TVA's PCB and PCB-contaminated equipment risks.

The scope of our review focused on TVA’s PCB equipment. This review was
conducted in accordance with the “Quality Standards for Inspections.”

FINDINGS AND RECOMMENDATIONS
There are currently no requirements to remove PCB equipment. However, some
previous TVA planned actions for PCB equipment removal were not completed.
TVA has recently approved a new PCB elimination strategy to address potential
EPA requirements. Additionally, TVA is at significant risk from the continued use
of PCB equipment, as (1) TVA maintains one of the largest inventories of PCB
equipment in the electric utility industry, (2) the condition of some of TVA’s PCB
equipment increases the risk of an incident, and (3) TVA does not have an
accurate inventory of its PCB-contaminated equipment.

NO CURRENT REQUIREMENTS FOR THE REMOVAL OF PCB
EQUIPMENT, BUT PREVIOUS TVA PLANNED ELIMINATION
ACTIONS WERE NOT COMPLETED
While there are currently no requirements for the elimination of PCB equipment,
the EPA has released an Advance Notice of Proposed Rulemaking, which serves
notice that a future requirement for PCB equipment removal is likely.

During our review, TVA personnel submitted a PCB elimination strategy to senior
management, which has been approved. TVA's Environment and Technology
personnel told us that this strategy was developed in response to likely
regulations coming from the EPA. These regulations would require the removal
of (1) askarel equipment by 2015, (2) the remainder of PCB equipment by 2020,
and (3) PCB-contaminated equipment by 2025. TVA has formed a working
group that will assist the Strategic Business Units (SBU) in developing PCB
elimination strategies. The charter for the working group contains a time frame
for developing an inventory of PCB-contaminated equipment.

Prior TVA PCB Elimination Plans
The OIG completed a review pertaining to PCBs in the mid-1990s, at which time
TVA was working to eliminate its inventory of PCB equipment. This was in
response to a 1988 General Manager Directive requesting TVA offices to
develop an integrated agency approach for the removal of PCB equipment. Also,
in 1991, an Executive Management Directive from the Senior Executive Officer
and President, Resource Group, was issued asking for the groups to provide cost
estimates to remove all PCB equipment and a realistic schedule for this removal.
The 1991 cost estimate showed approximately 1,600 pieces of electrical
Inspection 2009-12943                                                          Page 4
Office of the Inspector General                                    Inspection Report


equipment containing PCBs, with an estimated removal cost of approximately
$123 million. The estimated dates for the completion of removal were 1994 for
the nuclear sites and no earlier than 2001 for the fossil and hydro sites.

However, PCB equipment removal was not completed, and in November 2003,
TVA issued an Environmental Policy stating that it would no longer aim to
eliminate PCB equipment before the end of its useful life. The main reason given
for this change in strategy was that “Benefits include cost savings by SBU in
halting existing replacement programs for functional PCB equipment, and delay
of an estimated expenditure of approximately $230 million to eliminate PCB and
PCB-contaminated electrical equipment within TVA.”

TVA again changed its PCB strategy in 2008 by issuing an Environmental Policy
that contained the following PCB Critical Success Factor: “Further reduce the
risk of polychlorinated biphenyl (PCB) releases to the environment over time by
eliminating use of PCBs in large electrical equipment.”

Prioritization of PCB Equipment for Removal
When the OIG conducted a review of PCBs in the mid-1990s, several of the
operating groups employed a risk-rating system utilizing a mathematical formula
to assign a numerical value in order to prioritize removal of PCB equipment.
According to TVA personnel, this type of risk assessment is no longer being
performed. However, during our visits to the plants, we found that some plants
are prioritizing PCB equipment for removal based on risk at the plant level.
Some plants considered location of the equipment as one factor. Specifically,
one plant has askarel equipment located on the powerhouse floor that is ranked
as high risk because of its potential impact on plant operations. Other plants
may look at location, age, maintenance, or condition of the equipment, or a
combination thereof, when assessing risk. We were informed by TVA
management that they roll up the information generated by the Fossil Power
plants in order to make any replacement decisions at the fleet level.

Funding for PCB Equipment Removal and Replacement
Through interviews with TVA personnel, we determined that funding for removal
and replacement of PCB equipment is currently allocated from internal plant
funding. PCB removal is part of the capital budget and must compete with other
projects for funding. At this time, PCB removal receives no specific corporate
funding.

The elimination strategy established for the removal and replacement of PCB
equipment contains proposed deadlines that correspond with the EPA Advance
Notice. The strategy estimates the cost of removal and replacement for this
equipment to be approximately $62 million. However, the strategy does not
provide funding for equipment removal and replacement. It is up to the business
units to secure necessary funding.



Inspection 2009-12943                                                        Page 5
Office of the Inspector General                                                           Inspection Report


TVA FACES SIGNIFICANT RISK FROM THE CONTINUED USE OF
PCB EQUIPMENT
PCB equipment presents major risks to TVA. The primary risks associated with
PCB equipment are environmental and operational. These risks contribute to
enterprise risks in three key areas:4

 Catastrophic plant accident
 Environmental contamination
 Regulatory compliance

When PCBs are subjected to a fire or heated substantially, they can change
composition and may form very hazardous by-products. Some of these by-
products are much more toxic than PCBs. Groups at risk from this type of
exposure include firefighters and other emergency response personnel, cleanup
workers, and occupants of affected structures. Humans exposed to these PCB
fire by-products have developed chloracne,5 metabolic disorders, and other
systemic problems, including increased incidences of cancer.

Additionally, a spill or fire involving PCBs can affect a company’s ability to
maintain its operations. For example, a fire involving PCBs could contaminate a
facility, rendering it unusable. The contaminated area would have to undergo
extensive cleanup in accordance with EPA regulations before people could safely
return to the area. In some cases, an entire building or facility may be closed off
indefinitely. Such an incident at one of TVA’s generation facilities could cost
millions in cleanup costs and lost generation.

TVA Still Maintains a Significant Inventory of PCB Equipment
We reviewed documentation showing that TVA had more than 400 pieces of
PCB equipment in service at the end of fiscal year 2009. This is the equipment
that contains ≥ 500 ppm PCBs, with most of this equipment being askarel, which
contains ≥ 100,000 ppm PCBs. The EPA’s Advance Notice would require all
askarel equipment to be removed by 2015. The EPA is considering allowing
exceptions on a case-by-case basis based on hardship and no unreasonable
risk.




4
    The current TVA Risk Scorecard areas where PCBs contribute are Strategic (Long Range Planning
    External Influences), Operations (Asset Performance and Operations and Business Disruptions) and
    Compliance (Environmental).
5
    Chloracne is an acne-like eruption of blackheads, cysts, and pustules associated with overexposure to
    certain halogenated aromatic compounds, such as chlorinated dioxins and dibenzofurans.
Inspection 2009-12943                                                                               Page 6
Office of the Inspector General                                Inspection Report


Figures 2 and 3 show examples of askarel equipment and a nameplate on a
piece of askarel equipment, respectively.

Figure 2: Example of Askarel Equipment




Figure 3: Nameplate on Askarel Equipment




Inspection 2009-12943                                                     Page 7
Office of the Inspector General                                                            Inspection Report


At the end of calendar year 2009, TVA Fossil Power Group had 279 PCB
transformers and 83 PCB capacitors. At the end of September 2009, TVA
Nuclear had 59 PCB transformers. Figure 4 shows the locations of these
421 PCB items.

Figure 4: Percentage of 421 Known PCB Equipment Items by Location6

                   Percentage of Total PCB Equipment by
                                  Location
                                    Widows Creek                 Seqoyah Nuclear
                                       Fossil                          8%
                                        7%                                 Browns Ferry
                  Shawnee Fossil                                              Nuclear
                      12%                                                        6%

              John Sevier Fossil
                     3%
                                                                Allen Fossil
            Johnsonville Fossil                                     14%
                   7%

                                                            Colbert Fossil
                                    Kingston Fossil
                                                                16%
                                         21%



                                                            Gallatin Fossil
                                                                 6%

Source: Developed by OIG based on data provided by TVA personnel.




6
    Based on our review of this information, we determined that the following sites would be visited because
    of the quantity of PCB equipment in use: Allen Fossil Plant, Browns Ferry Nuclear Plant, Colbert Fossil
    Plant, Johnsonville Fossil Plant, Kingston Fossil Plant, Sequoyah Nuclear Plant, and Shawnee Fossil
    Plant. The following Nuclear and Fossil plants contained no known PCB equipment Bellefonte Nuclear,
    Watts Bar Nuclear, Bull Run Fossil, Cumberland Fossil, and Paradise Fossil.
Inspection 2009-12943                                                                                Page 8
Office of the Inspector General                                                     Inspection Report


TVA’s Inventory of PCB Equipment Compared to the Industry
In our 2010 report, Review of TVA’s Environmental Performance Results,7 we
noted that TVA fared poorly when benchmarking itself against 36 other electric
utilities with respect to the number of transformers containing ≥ 500 ppm PCBs.

As Figure 5 shows, TVA ranked near the bottom despite reducing its number of
transformers with ≥ 500 ppm PCBs from 1,130 in 1998 to 416 in 2007. TVA has
gone from having 20.66 percent of the total population of PCB transformers for
the peer group during the baseline years to 18.75 percent in 2007.

Figure 5: Number of PCB Transformers Compared to Industry




Source: Inspection 2007-11402, Review of TVA's Environmental Performance Results.

As Figure 5 shows, many companies have done a better job of reducing PCB
equipment inventory than TVA. Some companies, in fact, have completely
eliminated the use of PCB transformers. While it is considered industry best
practice8 to eliminate PCBs, current regulations do not require their elimination.



7
    Inspection 2007-11402, August 3, 2010.
8
    The Campus Environmental Resource Center (ERC) noted the removal of PCBs as a best practice. The
    ERC is intended to be a library of resources to support campus environmental performance
    improvement.
Inspection 2009-12943                                                                         Page 9
Office of the Inspector General                                      Inspection Report


The following key issues relating to PCB transformers were discussed in the
Environmental Performance Results report and were acknowledged by TVA:

 If TVA does not take proactive action, it may be forced into unscheduled
  outages to remove equipment to comply with anticipated rulemaking end
  dates.
 As the industry has made significant headway in removal of PCB equipment,
  the market demand for and number of PCB disposal companies have
  decreased. Consequently, PCB disposal costs may increase in the future.
 The longer TVA uses PCB equipment, the higher the risk of catastrophic
  failure.

The Condition of Some PCB Equipment Increases the Risk of an Incident
at TVA
Through the review of Problem Evaluation Reports (PERs), Environmental Audit
reports, and walkdowns of five fossil plants and two nuclear plants, we identified
issues that increase the risk of an incident involving PCBs at TVA. We identified
PCB equipment covered in coal dust, rags in close proximity to PCB equipment,
a PCB transformer with no containment dike, and leaking PCB equipment. TVA's
Environmental Auditors commented that in the past, TVA had more problems
with its PCB-containing equipment. However, they told us that TVA is currently
doing a better job of maintaining this equipment.

Since the manufacturing of PCBs was banned in the United States in 1979, all
equipment containing PCBs is at least 30 years old. As PCB-containing
equipment reaches the end of its useful life, the benefits of continued use of this
equipment may be diminished by the increased risk that an equipment failure
could release PCBs to the environment. The cost of cleaning up PCB spills may
exceed the cost of reclassifying or disposing of the intact PCB-containing
equipment and replacing it with new equipment. The consequences of failure
could include direct costs in equipment damage, equipment replacement, service
interruption, and lost revenue. Additionally, TVA could face liability costs in
compensation to other parties and potential fines for damages to human health
and the environment.




Inspection 2009-12943                                                        Page 10
Office of the Inspector General                                      Inspection Report


During our walkdowns, as shown in Figure 6, we found equipment that was
covered in coal dust, which could present a fire hazard. Federal regulations9
prohibit the storage of combustible materials within five meters of a PCB
transformer and provide penalties for failure to comply. While rags or coal dust
may be considered combustible materials posing an increased fire risk, their
presence within five meters of a PCB transformer may not be a regulatory
violation, as this may not be considered “storage.”

Figure 6: PCB Equipment Covered in Coal Dust




9
    40 CFR 761.30.
Inspection 2009-12943                                                        Page 11
Office of the Inspector General                                       Inspection Report


We found other combustible material near a PCB transformer. Figure 7 shows
cleanup rags within five meters of a PCB transformer, which poses a potential
fire risk.

Figure 7: Cleanup Rags Within Five Meters of PCB Transformer




TVA’s Environmental Auditors regularly perform site reviews that may include
PCBs, or perform PCB-specific reviews. We reviewed the Environmental Audit
reports from January 1, 2007, through March 1, 2010, to identify any PCB-related
issues. Multiple reports cited combustible materials located near PCB equipment
as a problem. Additionally, we reviewed Problem Evaluation Reports (PERs)
from January 2007 through July 2009. Again, the storage of combustible
materials within the exclusion area of PCB equipment was identified as a
recurring issue. We did not find any Reportable Environmental Events (REEs)
relating to TVA PCB incidents from October 2006 through February 2010.

As fire can have a significant impact on generating facilities, plant personnel, and
the environment, the OIG has initiated a review to determine if the fire protection
systems are adequately maintained and processes are in place to minimize the
impacts of a fire at TVA fossil plants.

While performing our walkdowns at the five fossil plants and two nuclear plants,
we noted that virtually all of the PCB equipment was surrounded by containment
dikes, which mitigate the risks from a PCB spill. An example of a containment
dike is shown in Figure 7.




Inspection 2009-12943                                                         Page 12
Office of the Inspector General                                                            Inspection Report


During our walkdowns, we noted only one PCB transformer that was not
surrounded by a containment dike. Figure 8 shows this transformer, which is
located at Allen Fossil Plant. This piece of equipment was retrofilled10 in late
October 2010, subsequent to our walkdown of the facility. Before the transformer
was retrofilled, a spill would have affected the sediment surrounding the
transformer and could have required major cleanup. This issue was also
identified during an Environmental Audit. While the use of containment dikes
mitigates the risks posed by a spill of PCB liquid, it does not lessen the risk of an
airborne release or fire involving equipment containing PCBs.

Figure 8: PCB Transformer Lacking Containment Dikes




10
     In order to reduce the PCB concentration in the core and coil of a PCB-contaminated transformer, the
     contaminated oil is drained out and new non-PCB containing oil is put in its place, a process called
     “retrofilling.”
Inspection 2009-12943                                                                               Page 13
Office of the Inspector General                                   Inspection Report


During our walkdowns, we observed incidents of leaking/seeping equipment (see
Figure 9). Based on this, and discussions with plant personnel, leaking/seeping
equipment does not appear to be a rare occurrence. This could be indicative of
the equipment’s increased age and deteriorating condition. However, all of the
leaking/seeping equipment we encountered was surrounded by containment
dikes, which served to control the spills.

TVA personnel note leaks during quarterly walkdowns and/or Environmental
Audits, and corrective actions are to be taken when found. More frequent
inspections are conducted for equipment that has identified leaks/seeps.

Figure 9: Spill From Leaking PCB Equipment




TVA Does Not Have an Accurate Inventory of Its PCB-Contaminated
Equipment
Through discussions with TVA management, we determined that TVA does not
have an accurate inventory of its PCB-contaminated equipment. Plant
management and other plant personnel confirmed that they do not have a good
grasp on their PCB-contaminated inventory. EPA’s Advance Notice would
require companies to remove all PCB-contaminated equipment by 2025. Not
having an accurate inventory poses a risk and hampers TVA’s efforts to remove
and replace this equipment.




Inspection 2009-12943                                                     Page 14
Office of the Inspector General                                      Inspection Report


In December 2009, a fire at the John Sevier Fossil Plant spread to a piece of
equipment containing PCBs. After the fire, plant personnel closed off the area
due to concerns that asbestos equipment was involved. Later, concerns were
raised that PCBs may have been involved, and debris from the burnt equipment
was sent to a lab for testing. The lab reported that PCBs were indeed involved,
so PCB cleanup was initiated. The total cost to clean up the asbestos, PCBs,
and other contaminants was more than $900,000, and the area was not declared
clean for six months. During this time, access to the area was restricted, and
employees had to wear protective apparel to enter. Additionally, we were
informed that this was a piece of PCB-contaminated equipment (equipment
containing 50–499 ppm PCBs) and not a piece of PCB equipment (≥ 500 ppm)
and therefore was not on the plant’s inventory of PCB equipment.

TVA is currently performing preliminary work for inventorying PCB-contaminated
equipment. Upon completion of this inventory, TVA plans to perform a risk
analysis for this equipment and prioritize it for removal by 2025. Until an
accurate inventory and risk analysis are completed, TVA will not be able to
determine the cost for removing and replacing its PCB-contaminated equipment.

Currently, each SBU is in the process of developing their PCB elimination
strategy and cost estimates. Our review of internal documentation, which was
not finalized or approved, found the cost estimate for completing the inventory to
be approximately $2.5 million and a completion date of fiscal year 2015. The
documentation also states that to develop an accurate PCB-contaminated
inventory, TVA will review:

 Pieces of equipment for which actual PCB concentrations are known either
  by nameplate or previous analytical data.
 Pieces of equipment for which nameplate PCB concentrations are not
  available, but manufacturer name, serial number, date of manufacture, date of
  installation, or similar information is available from nameplate or internal
  records.
 Pieces of equipment for which no information is available to support a PCB
  concentration determination.




Inspection 2009-12943                                                        Page 15
Office of the Inspector General                                       Inspection Report


RECOMMENDATIONS
We recommend that the Chief Operating Officer (1) expedite the removal of PCB
equipment by (a) providing dedicated funding and (b) developing a standard
methodology for assessing risk of PCB equipment to prioritize its removal and
(2) provide dedicated funding to expedite the efforts to determine the PCB-
contaminated inventory in order to prioritize and allocate funding for the removal
of this equipment. Until the PCB-contaminated inventory is completed, TVA
should treat all fires involving electrical equipment as if they involve PCBs until
determined otherwise.

MANAGEMENT'S RESPONSE
TVA management provided written comments on a draft of this report, which are
reproduced in their entirety in the Appendix. TVA management agreed with the
recommendations and provided various contextual and clarifying comments that
we evaluated and incorporated into the final report as appropriate. Comments
that were not incorporated into the final version of the final report are discussed
below.

TVA management disagreed that PCB disposal costs may rise due to the
decreasing number of PCB disposal companies. In a Benchmark Performance
Report prepared by TVA, it was commented that "the market demand for and
number of PCB disposal companies have decreased. Consequently, PCB
disposal costs are increasing." EPA in their advanced notice also stated that
disposal costs may increase faster than the general increase in inflation or cost
of living.

TVA management stated that the transformer at Allen Fossil Plant was not a
PCB transformer and that no additional examples of a PCB transformer without a
dike were provided in the report. However, as noted in our report, when we
performed our walkdown at Allen Fossil Plant, the transformer was an active
PCB transformer. It was subsequent to our visit that the transformer was
retrofilled, which is also noted in the report.

TVA management stated that TVA routinely tests for PCBs in fires involving
electrical equipment. They also stated that the Fossil Power Group Fire Brigade
personnel are aware of the electrical equipment that contains PCBs and take
appropriate precautions for fires in these areas. We were informed that, while
testing to see if asbestos had been involved in the John Sevier fire, a decision
was made to see if any PCBs were involved. It was not initially known whether
PCBs were involved in the fire as it was found that the piece of equipment that
contained PCBs was not on any inventory list. Fire Brigade personnel may be
aware of the large pieces of PCB equipment (≥ 500 ppm PCB), but as there is
not an inventory of PCB-contaminated equipment, they would not know of this
equipment. Therefore, all fires involving electrical equipment should be treated
as if PCBs may be involved.

Inspection 2009-12943                                                         Page 16
APPENDIX
Page 1 of 8
APPENDIX
Page 2 of 8
APPENDIX
Page 3 of 8
APPENDIX
Page 4 of 8
APPENDIX
Page 5 of 8
APPENDIX
Page 6 of 8
APPENDIX
Page 7 of 8
APPENDIX
Page 8 of 8
